Office of Inspector General
       Inquiry into Allegations of
    Undue Political Interference with
  Federal Reserve Officials Related to
 the 1972 Watergate Burglary and Iraq
  Weapons Purchases during the 1980s




Board of Governors of the Federal Reserve System

                                         March 2012
                                         March 30, 2012

The Honorable Ben S. Bernanke
Chairman
Board of Governors of the Federal Reserve System
Washington, D.C. 20551

Dear Chairman Bernanke:

        The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve
System (Board) is pleased to present its report on the Inquiry into Allegations of Undue Political
Interference with Federal Reserve Officials Related to the 1972 Watergate Burglary and Iraq
Weapons Purchases during the 1980s. During your February 2010 “Humphrey-Hawkins”
testimony before the House Committee on Financial Services (Committee), Representative Ron
Paul alleged that “the cash used in the Watergate scandal came through the Federal Reserve,”
and that “investigators . . . were always stonewalled” by the Federal Reserve. In addition,
Representative Paul alleged that the Federal Reserve “facilitated a $5.5 billion loan to Saddam
Hussein, who then bought weapons from our military industrial complex. . . .” Following the
hearing, the Chairman of the Committee, Representative Barney Frank, sent a letter to you that
referred to Representative Paul’s statements. In his letter, Representative Frank requested a full
investigation into allegations that inappropriate political interference with the Federal Reserve
System “result[ed] in hidden transfers of resources to [1] facilitate crimes during the Watergate
scandal in the 1970s, and [2] Iraq for weapons purchases during the 1980s.” You referred the
matter to the OIG, and our office initiated this inquiry in response to your request.

        We performed this inquiry to identify and assess any available evidence of undue
political interference with Federal Reserve officials related to the 1972 Watergate burglary and
Iraq weapons purchases during the 1980s. In assessing undue political interference, our review
sought to identify any available evidence of the improper use of the political process or political
authority that could have affected the conduct or decision-making of Federal Reserve officials.
Specifically, we focused our analysis on allegations that (1) the cash found on the Watergate
burglars came through the Federal Reserve, (2) the Federal Reserve “stonewalled” congressional
members and staff investigating the source of the cash found on the burglars, and (3) the Federal
Reserve facilitated a $5.5 billion loan to Iraq for weapons purchases during the 1980s.

        We did not find any evidence of undue political interference with Federal Reserve
officials related to the 1972 Watergate burglary or Iraq weapons purchases during the 1980s.
Specifically, regarding the first Watergate allegation, we did not find any evidence of undue
political interference with or improper actions by Federal Reserve officials related to the cash
Chairman Bernanke                               2                                 March 30, 2012
found on the Watergate burglars. Our office also did not find any evidence of undue political
interference with Federal Reserve officials or inaccurate responses by Board officials regarding
the second Watergate allegation (i.e., that the Federal Reserve “stonewalled” congressional
members and staff about the source of the cash found on the burglars). The documentation we
reviewed indicated that the Board’s decision not to provide information requested by
congressional members and staff was consistent with the U.S. Attorney’s Office for the District
of Columbia advising the Board to not disclose the information because such disclosure may
impede the investigation and jeopardize the subsequent prosecution. With regard to the Iraq
allegation, we did not find any evidence of undue political interference with Federal Reserve
officials or any indications that the Federal Reserve facilitated a $5.5 billion loan to Saddam
Hussein or Iraq for weapons purchases during the 1980s.

        We provided a draft of our report to the Board’s General Counsel for review and
comment. In his response, included as appendix 1, the General Counsel stated that our report
confirmed past statements by Federal Reserve officials in relation to these incidents and
indicated his appreciation for the thoroughness of our review.

        We appreciate the cooperation that we received from the Board; the Federal Reserve
Banks of Atlanta, Philadelphia, and New York; as well as the Federal Bureau of Investigation
(FBI), the Georgia Department of Banking and Finance, and the U.S. Department of Agriculture
(USDA) during our review. We are providing copies of this report to Board management;
officials at the Federal Reserve Banks of Atlanta, Philadelphia, and New York; the FBI; and the
USDA. The report will be added to our public website and will be summarized in our next
semiannual report to Congress. Please contact me if you would like to discuss this report or any
related issues.

                                           Sincerely,




                                           Mark Bialek
                                        Inspector General

Enclosure

cc: Mr. Scott Alvarez
Office of Inspector General
       Inquiry into Allegations of
    Undue Political Interference with
  Federal Reserve Officials Related to
 the 1972 Watergate Burglary and Iraq
  Weapons Purchases during the 1980s




Board of Governors of the Federal Reserve System

                                         March 2012
                                                    TABLE OF CONTENTS


                                                                                                                                        Page
Background ................................................................................................................................... 7
Objective, Scope, and Methodology ............................................................................................ 7
   Methodology for Analyzing Watergate Burglary Allegations .....................................................8
   Methodology for Analyzing Iraq Weapons Purchases Allegation ...............................................9
Findings and Conclusions .......................................................................................................... 10
   I. Allegations Regarding the Watergate Burglary .....................................................................11
      The Federal Reserve and the Cash Found on the Watergate Burglars .................................. 11
      The Federal Reserve’s Responses to Congressional Members and Staff .............................. 13
   II. Allegation Regarding Iraq Weapons Purchases ...................................................................16
   Overall Conclusion .....................................................................................................................21
Analysis of Comments ................................................................................................................ 21
Appendixes .................................................................................................................................. 23
   Appendix 1 – Management’s Comments ...................................................................................25
   Appendix 2 – The Federal Reserve System’s Structure and Function .......................................27
   Appendix 3 – OIG Chronology of the Board’s Responses to Congressional Inquiries
                Related to the Watergate Burglary......................................................................29
   Appendix 4 – Abbreviations ......................................................................................................31
Background
The Chairman of the Board of Governors of the Federal Reserve System (Board) testifies
semiannually before the House Committee on Financial Services (Committee) on monetary
policy and the state of the economy. This is commonly referred to as the “Humphrey-Hawkins”
testimony. During Chairman Ben Bernanke’s semi-annual testimony before the Committee on
February 24, 2010, Representative Ron Paul alleged that “the cash used in the Watergate scandal
came through the Federal Reserve,” and that “investigators . . . were always stonewalled” by the
Federal Reserve. In addition, Representative Paul alleged that the Federal Reserve “facilitated a
$5.5 billion loan to Saddam Hussein, who then bought weapons from our military industrial
complex. . . .”

Following the hearing, the Chairman of the Committee, Representative Barney Frank, sent a
letter to Chairman Bernanke that referred to Representative Paul’s statements. In his letter,
Representative Frank requested a full investigation into allegations that inappropriate political
interference with the Federal Reserve System “result[ed] in hidden transfers of resources to [1]
facilitate crimes during the Watergate scandal in the 1970s, and [2] Iraq for weapons purchases
during the 1980s.”

By letter dated April 16, 2010, Chairman Bernanke responded that he had “no knowledge that
the Federal Reserve on its own or as a result of political or other interference facilitated any
crimes or transfers in either of these matters.” Chairman Bernanke referred the allegations to the
Office of Inspector General (OIG) and requested that the OIG perform an investigation.
Congress established the OIG as an independent oversight authority within the Board. The OIG
conducts audits, investigations, and other reviews related to the Board under the authorities and
responsibilities of the Inspector General Act of 1978, as amended.

Objective, Scope, and Methodology
We performed this inquiry in response to Chairman Bernanke’s request. Our objective was to
identify and assess any available evidence of undue political interference with Federal Reserve
officials related to the 1972 Watergate burglary and Iraq weapons purchases during the 1980s.
In assessing undue political interference, our review sought to identify any available evidence of
the improper use of the political process or political authority that could have affected the
conduct or decision-making of Federal Reserve officials. Based upon our review of the February
2010 hearing record, and discussions with the staffs of Representative Frank and Representative
Paul, we focused our analysis on the following allegations: (1) the cash found on the Watergate
burglars came through the Federal Reserve, (2) the Federal Reserve “stonewalled” congressional
members and staff investigating the source of the cash found on the burglars, and (3) the Federal
Reserve facilitated a $5.5 billion loan to Iraq for weapons purchases during the 1980s.

We reviewed the February 2010 hearing record and contacted the staffs of Representative Frank
and Representative Paul, as well as Board staff, to obtain further detail regarding these
allegations. At the suggestion of Representative Paul’s staff, we reviewed a discussion of these




                                                 7
allegations in a book by a professor at the University of Texas at Austin and contacted the
professor for any additional information regarding these allegations.

Methodology for Analyzing Watergate Burglary Allegations
To identify any evidence regarding the Watergate allegations, our office performed searches of
voluminous Board and Federal Reserve Bank archives, as well as Federal Bureau of
Investigation (FBI) and congressional records. We also obtained documents related to the cash
found on the Watergate burglars from the Board’s electronic and hard-copy records systems and
the Board’s collection of Board meeting minutes from that time period.

We contacted the FBI to request any Watergate investigative materials that mention or relate to
the Federal Reserve. In response, the FBI made available, and we reviewed, over 10 boxes of
Watergate-related documents consisting of status memorandums, photographs, investigative
summaries, and transaction records. Our office examined the final report of the Senate Select
Committee on Presidential Campaign Activities, which consisted of over 1,200 pages, and
examined the related congressional Watergate hearings transcript, consisting of 3,000 pages of
transcribed testimony from 37 witnesses testifying over a five-week time span. We also
reviewed the Government Accountability Office’s (GAO’s) reports on Watergate and the
Washington Post’s online archive of Watergate articles.

We conducted employee interviews and examined documentation at the Federal Reserve Banks
of Philadelphia and Atlanta and the National Archives and Records Administration. During on-
site visits to the Federal Reserve Banks of Philadelphia and Atlanta, we reviewed the Federal
Reserve Banks’ boards of directors’ meeting minutes and archived records for any additional
information related to the cash found on the Watergate burglars. We also interviewed employees
about the cash process in the 1970s. Our interviews included employees at the Federal Reserve
Bank of Philadelphia and the Federal Reserve Bank of Atlanta, including its Miami branch, who
had worked at these locations since before the Watergate scandal, as well as current Board staff
who were also employed by the Board at the time. Additionally, we visited the Gerald R. Ford
Presidential Library and Museum in Ann Arbor, Michigan, to review the library collection of
Arthur Burns, Board Chairman at the time of the Watergate burglary. The collection includes
Chairman Burns’ handwritten journals, which contain his personal account of private
interactions, staff meetings, and other information.

Based on information available in Board and FBI documents, our office developed a chronology
of the Board’s actions following the Watergate burglary to evaluate the Board’s responses for
any evidence that, as a result of undue political interference, the Board “stonewalled”
congressional members or staff about the source of the cash found on the burglars. To develop
the chronology, we utilized Board correspondence with Congress, Board staff chronologies
written shortly after the burglary, press releases, and FBI investigative information. We
analyzed the chronology to determine the extent to which various information was available to
different individuals within the Federal Reserve System and externally, including Congress and
the FBI. The detailed chronology is contained in appendix 3.




                                                8
We also identified that, prior to the Watergate burglary, there was a well-publicized theft at the
Federal Reserve Bank of Philadelphia involving its Cash Verification and Destruction (CV&D)
process. Because of the relative proximity of the date of this theft to the Watergate burglary, and
since it occurred at one of the Federal Reserve Banks that had distributed some of the $100 bills
found on the Watergate burglars, our office also searched for any available evidence of a
connection between this theft and the Watergate burglary. At the Federal Reserve Bank of
Philadelphia, we analyzed the FBI report of investigation on the theft and other related
documents and spoke with current Federal Reserve Bank of Philadelphia employees with
knowledge of the incident. We also reviewed Board documents and interviewed current and
former Board employees familiar with the theft and the resulting changes to cash procedures and
controls.

Methodology for Analyzing Iraq Weapons Purchases Allegation
To identify any evidence regarding the Iraq allegation, we performed multiple searches through
Federal Reserve archives from the late 1980s and early 1990s. We also conducted numerous
interviews of Federal Reserve officials. We identified that, during the 1980s, the Atlanta office
of an Italian Foreign Banking Organization (FBO), Banca Nazionale del Lavoro (BNL-Atlanta),
was involved in extending $5.5 billion in unauthorized loans and letters of credit that largely
benefited Iraq. We searched for any evidence of undue political interference with Federal
Reserve officials related to BNL-Atlanta. As discussed below, BNL-Atlanta, as a U.S. office of
an FBO, was primarily examined by the Georgia Department of Banking and Finance (State of
Georgia), and the Federal Reserve had umbrella supervisory authority.

To identify any evidence that the Federal Reserve facilitated BNL-Atlanta’s loans to Iraq, our
office examined voluminous documents, including government reports, correspondence files,
and internal memorandums. We reviewed transcripts of 15 congressional hearings,
congressional staff reports, and GAO reports related to BNL-Atlanta. We also reviewed multiple
reports by the Department of Justice (DOJ) regarding its investigation and prosecution of BNL-
Atlanta employees. Additionally, we reviewed the Board’s records concerning BNL-Atlanta,
which included congressional correspondence, status memorandums, and internal reports.

To obtain information on the Federal Reserve’s supervision of BNL-Atlanta, our office
performed multiple searches of Board and Federal Reserve Bank archives and interviewed
examination staff. We obtained documents from the Board’s records systems, including BNL-
Atlanta examination reports, and from the Board’s collection of Board meeting minutes. At the
Federal Reserve Bank of Atlanta and the Federal Reserve Bank of New York, we reviewed
records and interviewed examination staff for additional information on the supervision of BNL-
Atlanta. We also interviewed bank examiners from the State of Georgia, which had primary
examination authority for BNL-Atlanta. We reviewed examination reports for BNL-Atlanta for
any evidence of unusual supervisory practices, such as inadequately addressed examination
areas, or insufficient responses by BNL-Atlanta to identified deficiencies or recommendations.
We also consulted with legal staff at the Board and the Federal Reserve Banks about changes to
the supervision of foreign banks due to the enactment of the Foreign Bank Supervision and
Enforcement Act of 1991.




                                                 9
We also reviewed whether the Federal Reserve directly provided funds to BNL-Atlanta through
its discount window lending program. Our office interviewed staff in the Federal Reserve Bank
of Atlanta’s credit department and reviewed related congressional testimony by Federal Reserve
officials. We also analyzed publicly available Federal Reserve information pertaining to the
discount window lending program.

While conducting our inquiry, we determined that BNL-Atlanta participated in a government
export guarantee program run by the U.S. Department of Agriculture’s (USDA’s) Commodity
Credit Corporation (CCC), and the Board was a member of an advisory body to the CCC called
the National Advisory Council on International Monetary and Financial Policies (NAC). 1 To
gain an understanding of BNL-Atlanta’s participation in the CCC and the Board’s actions on the
NAC, our office reviewed public reports and spoke with officials knowledgeable about the
program. We obtained substantial information from DOJ reports documenting the results of its
BNL-Atlanta investigation, including the use of CCC-guaranteed funds by Iraq. Our office
interviewed USDA and various Board and Federal Reserve Bank officials, including a Board
Governor, about the CCC program, BNL-Atlanta’s participation, and the Board’s role on the
NAC. We also reviewed Board records and GAO reports about the CCC and the NAC’s
deliberations regarding Iraq’s participation in the CCC during the 1980s.

We conducted our evaluation fieldwork from April 2010 through July 2011 in accordance with
the Quality Standards for Inspection and Evaluation issued by the Council of the Inspectors
General on Integrity and Efficiency.

Findings and Conclusions
We did not find any evidence of undue political interference with Federal Reserve officials
related to the 1972 Watergate burglary or Iraq weapons purchases during the 1980s.
Specifically, related to the Watergate allegations, we did not find any evidence of undue political
interference with or improper actions by Federal Reserve officials related to the cash found on
the Watergate burglars. We also did not find any evidence of undue political interference with
Federal Reserve officials or inaccurate responses by Board officials regarding the allegation that
the Federal Reserve officials “stonewalled” congressional members and staff regarding the
source of the cash found on the burglars. With regard to the Iraq allegation, we did not find any
evidence of undue political interference with Federal Reserve officials or any indications that the
Federal Reserve facilitated a $5.5 billion loan to Saddam Hussein or Iraq for weapons purchases
during the 1980s. We also did not find evidence of any loans between the Federal Reserve and
Saddam Hussein or Iraq during the 1980s.




        1
            The Board’s Chairman was the Board’s principal representative on the NAC. The NAC also had a
Committee of Alternates, composed of representatives from the member agencies who were empowered to act for
their principals. The day-to-day work of the NAC was handled by a Staff Committee composed of economists and
other professionals from the member agencies.


                                                     10
I. Allegations Regarding the Watergate Burglary
The Washington, D.C., Metropolitan Police Department arrested five individuals who had
illegally entered the Democratic National Committee headquarters located at the Watergate
office building in Washington, D.C., on June 17, 1972. At the time of the arrest and the
subsequent search of the burglars’ hotel rooms at the Watergate Hotel, 44 new $100 bills were
discovered, some of which were sequentially numbered. Thereafter, the five burglars were
indicted and found guilty on charges arising from the burglary. The Watergate burglary led to a
political scandal that eventually led to the resignation of President Richard Nixon.

The Watergate scandal was the subject of multiple investigations by the FBI, the U.S. Attorney’s
Office for the District of Columbia (U.S. Attorney’s Office), DOJ’s Criminal Division, and
GAO. Congress also held public hearings during spring and summer 1973 to investigate the
Watergate burglary and illegal and improper practices during the 1972 presidential campaign.
Congress’ final report, published in June 1974, included findings and recommendations based on
its investigation.

To assess undue political interference related to the Watergate burglary allegations, we searched
for any evidence of the improper use of the political process or authority that could have affected
the conduct or decision-making of Federal Reserve officials. Based on these allegations, our
review focused on the cash found on the burglars, the cash distribution process, and the Board’s
response to congressional members and staff about the source of the cash found on the burglars.

Our review did not find any evidence of undue political interference with or improper actions by
Federal Reserve officials related to the cash found on the Watergate burglars. With regard to the
allegation that the Federal Reserve “stonewalled” congressional members and staff about the
source of the cash found on the burglars, we found no evidence of undue political interference
with Federal Reserve officials or inaccurate responses by Board officials. The documentation we
reviewed indicated that the Board’s decision not to provide information requested by
congressional members and staff was consistent with the U.S. Attorney’s Office advising the
Board at the time to not disclose the information because such disclosure may impede the
investigation and jeopardize the subsequent prosecution.

Our office also analyzed a well-publicized theft that occurred prior to the Watergate burglary at
the Federal Reserve Bank of Philadelphia involving its CV&D process. We did not identify any
evidence of a connection between the cash stolen during this theft and the cash found on the
Watergate burglars.

The Federal Reserve and the Cash Found on the Watergate Burglars

According to an FBI report on Watergate, the authorities found 44 new $100 bills, some of
which were in sequential order, belonging to the Watergate burglars. The FBI investigation that
traced the serial numbers of the bills revealed that the Bureau of Engraving and Printing (BEP)
distributed some of these $100 bills to the Federal Reserve Bank of Philadelphia and the Federal
Reserve Bank of Atlanta’s Miami branch. Through tracing the serial numbers on the bills, the
FBI report indicated that the Federal Reserve Bank of Philadelphia’s records disclosed that the


                                                11
bills had been shipped to the Girard Bank and Trust Company in Philadelphia, and the Federal
Reserve Bank of Atlanta’s Miami branch confirmed to the FBI that its bills were part of a
shipment to the Republic National Bank in Miami.

As depicted in the following figure, the cash distribution process for new bills in the 1970s
involved a number of steps before the bills were dispersed to the general public. BEP printed
new bills and then distributed them to Federal Reserve Banks and their district branches around
the country. The Federal Reserve Banks and district branches then shipped the new bills to
commercial banks. The Federal Reserve Banks only issued new bills to commercial banks and
did not provide them directly to individuals. Lastly, the commercial banks distributed the new
bills to the public through teller windows and other means.



                1972 Cash Distribution Process

                                                Federal Reserve
                          BEP sends new
                                                Banks ship new       Commercial banks
   BEP prints new        bills in sequential
                                               bills in sequential   distribute new bills
        bills            order to Federal
                                                     order to           to the public
                          Reserve Banks
                                               commercial banks




New bills were kept in sequential order by “series” and distributed to commercial banks from the
Federal Reserve Banks in “straps” of 100 bills of the same denomination. As such, commercial
banks that distributed new bills could distribute such bills in sequential order. As new bills
circulated, sequential bills became separated. Circulated bills that were deposited into
commercial banks were eventually returned to the Federal Reserve Banks through normal
commerce. The Federal Reserve Banks counted and authenticated the bills, and then determined
whether the bills were “fit” or “unfit.” Bills that were torn, soiled, or too worn for recirculation
were deemed unfit and destroyed. Fit (reusable) bills were stored in the Federal Reserve Banks’
vaults until they were recirculated through the commercial banks.

We reviewed this process to identify any evidence of undue political interference with Federal
Reserve officials in relation to the distribution of the cash found on the Watergate burglars.
Specifically, our office searched Federal Reserve records relating to the burglary and interviewed
staff employed at the Board, the Federal Reserve Bank of Philadelphia, and the Federal Reserve
Bank of Atlanta, as well as its Miami branch, at the time of the burglary. None of the records or
interviewees revealed anything unusual or improper about the Federal Reserve’s role in the
distribution process that existed at the time of the Watergate burglary. The documentation
indicated that the Federal Reserve Banks delivered the bills to the commercial banks. While the
Federal Reserve Banks recorded the serial numbers of new $100 bills distributed to commercial


                                                12
banks, the commercial banks did not record the serial numbers of new bills distributed to the
public. As such, the FBI traced the new $100 bills found on the Watergate burglars to
commercial banks in Philadelphia and Miami, but it was unable to determine when or how the
bills were distributed from these commercial banks. We did not find any evidence of undue
political interference or that the Federal Reserve provided the new $100 bills directly to the
burglars.

In addition to our review of the cash found on the burglars and the cash distribution process, we
identified a well-publicized theft of unfit bills from the Federal Reserve Bank of Philadelphia
that occurred prior to the Watergate burglary. We analyzed the details of the theft to identify any
evidence of a connection to the Watergate burglary. In this incident, known as the “CV&D
theft,” several Federal Reserve Bank of Philadelphia employees conspired and stole a total of
$1.4 million in unfit bills over a period of time, prior to their arrest in February 1972. Because of
the relative proximity of the date of this theft to the Watergate burglary, and since it occurred at
one of the Federal Reserve Banks that had distributed some of the new $100 bills found on the
Watergate burglars, our office searched for any evidence of a potential connection between the
cash involved in the CV&D theft and the cash found on the Watergate burglars. We found that
the CV&D theft involved only unfit bills, while the Watergate burglars possessed new bills. Our
review of documentation on the theft and interviews with Federal Reserve officials did not
identify any evidence of a connection between the unfit cash stolen during the CV&D theft and
the new cash found on the Watergate burglars.

The Federal Reserve’s Responses to Congressional Members and Staff

To evaluate the Board’s responses to congressional members and staff during the days
subsequent to the Watergate burglary regarding the source of the cash found on the burglars, we
developed a chronology based upon various documents written shortly after the burglary. The
documents that we identified and analyzed included four written accounts by Board staff, several
items of correspondence from the Board and from Congress, press releases, and FBI
investigative files.

To better understand the chronology, it is helpful to explain the structure of the Federal Reserve
System. As the central bank of the United States, the Federal Reserve System includes the Board
of Governors of the Federal Reserve System, which is an independent federal agency located in
Washington, D.C. The Federal Reserve Act provides that the Board shall consist of seven
members, called governors, who are appointed by the President and confirmed by the Senate.

The Federal Reserve System also includes 12 regional Federal Reserve Banks. As previously
mentioned, Federal Reserve Banks distribute cash to commercial banks, which then circulate the
cash to the public. Federal Reserve Banks combine both public and private elements in their
makeup and organization. Each Federal Reserve Bank has a nine-member board of directors that
oversees its operations. Additional information on the structure and function of the Federal
Reserve System is contained in appendix 2.

To address the allegation that the Federal Reserve “stonewalled” congressional members and
staff about the source of the cash found on the burglars, we assessed the Board’s responses to



                                                 13
congressional information requests for any evidence of undue political interference. Based on
our analysis of the chronology and available documentation, we did not identify any evidence
that the Board’s initial or subsequent responses to congressional requests regarding its
knowledge about the $100 bills were inaccurate or the result of undue political interference.

The documentation we reviewed did not contain any indications that the Board was aware of any
information about the source of the cash found on the burglars at the time of its initial responses
to congressional members and staff. The documentation showed that on June 19, 1972, two days
after the Watergate burglary, Senator William Proxmire, Chairman of the Financial Affairs
Subcommittee of the Joint Economic Committee, made a request to the Board in Washington,
D.C., for the name(s) of the Federal Reserve Bank(s) involved in issuing the $100 bills found on
the burglars, the name(s) of the person(s) receiving them, and the source of the check or financial
instrument used to purchase the bills. That day, Board Chairman Burns responded by letter, “We
at the Board have no knowledge of the Federal Reserve [B]ank which issued those particular
notes or of the commercial bank to which they were transferred. Without this information, there
is nothing we can do to comply with your request.” Chairman Burns’ letter also stated that once
the investigative authorities provided that information to the Board, “we shall of course be glad
to cooperate in every possible way.” Board staff also told Senator Proxmire’s office that day that
the Board “had an obligation to ascertain whether anything the Federal Reserve might disclose
would interfere with the investigations that were being carried on by the law enforcement
authorities.” The documentation we reviewed did not contain any Board communications about
the Watergate burglary prior to the receipt of Senator Proxmire’s June 19 request, including any
communications with the investigative authorities or the Federal Reserve Banks. We also did
not find any indications that Chairman Burns or any Board staff were aware of the issuing
Federal Reserve Banks or the serial numbers of the $100 bills when they responded on June 19
to Senator Proxmire’s request. 2

We noted from documentation that a Board staff member initiated contact with the FBI on the
evening of June 19 and learned which two Federal Reserve Banks had issued the bills. However,
the documentation did not indicate that the FBI shared any other investigative information that
evening, including whether the FBI had contacted the two Federal Reserve Banks. The next
morning, the Board staff member provided the names of the two Federal Reserve Banks to the
other Board staff who were in communication with Senator Proxmire’s office.

In response to the Board’s initial statements regarding its lack of information concerning the
$100 bills found on the Watergate burglars, we noted several statements by congressional
members and staff that the Board was not cooperating with their request. For example, Senator
Proxmire’s press release of June 20, 1972, stated:

         At the same time that the FBI told my staff on Monday [June 19] they had already
         been in touch with the Federal Reserve to identify where the bills came from,
         Chairman Arthur Burns wrote me that ‘We at the Board have no knowledge of the
         Federal Reserve [B]ank which issue[d] those particular notes’.


         2
           Each bill contains a series number and a serial number, which together make the bill unique. Bills can be
traced to the issuing Federal Reserve Bank using the serial numbers on each bill.


                                                         14
According to Board staff accounts, Chairman Burns’ letter (referenced in Senator Proxmire’s
press release) was sent on June 19 at 4:20 p.m. At 5:00 p.m. that evening, the Board’s Director
of Reserve Bank Operations learned from the FBI the names of the two Federal Reserve Banks
that issued the $100 bills. We noted that the Board staff accounts indicated that they learned
throughout the day of June 20 from the Federal Reserve Bank of Philadelphia and, the Federal
Reserve Bank of Atlanta, and its Miami branch, that the previous day (June 19) the Federal
Reserve Banks had provided the FBI with detailed information about the $100 bills found on the
Watergate burglars. We did not identify any evidence that the Board was aware of the contacts
between the Federal Reserve Banks and the FBI when it responded to Senator Proxmire’s request
on June 19.

After the Board’s initial responses to congressional members and staff that it would cooperate
with their information request, the Board subsequently decided that it should not provide the
requested information. Based on our review of available documentation, the Board’s decision
not to provide the information was consistent with the Board being advised by the U.S.
Attorney’s Office to not disclose it. Senator Proxmire’s final letter about this matter to Chairman
Burns, on August 1, 1972, stated, “I now find that the U.S. Attorney did not ask in any formal
way that you withhold the information from me. . . .” In our evaluation of the Board’s responses
to congressional members and staff, we noted that the Board staff accounts written shortly after
the Watergate burglary contained multiple references to discussions in which the U.S. Attorney’s
Office requested that Board officials not disclose the information because such disclosure may
impede the investigation and jeopardize the subsequent prosecution. For example, the account
by the Board’s General Counsel stated that when he called the U.S. Attorney’s Office to ask
about disclosing the information to congressional members and staff, the U.S. Attorney
responded that “with respect to any case in his office, his firm policy was that, subject to
contrary directive from the Attorney General, there would be no disclosure of investigative
evidence prior to presentation of facts to a Grand Jury. . . .”

Our office compared the Board staff’s written accounts with FBI records relating to discussions
between the Board and the investigative authorities. The FBI investigative files confirmed that
the FBI referred the Board staff to the U.S. Attorney’s Office regarding the disclosure of
information to Congress. The files also indicated that the FBI responded to similar requests by
stating that the information was part of its investigation and that the FBI could not share the
information with Congress. In our review of the available documentation, we did not find any
evidence of undue political interference in the Board’s decision not to provide the requested
information, and we noted that the documentation indicated that the Board’s actions were
consistent with the U.S. Attorney’s Office advising the Board to not disclose the information
because such disclosure may impede the investigation and jeopardize the subsequent
prosecution.




                                                15
II. Allegation Regarding Iraq Weapons Purchases
To address the allegation that the Federal Reserve facilitated a $5.5 billion loan to Iraq for
weapons purchases during the 1980s, we searched for any evidence of undue political
interference with Federal Reserve officials related to BNL-Atlanta. BNL-Atlanta, one of five
U.S. offices operated by Banca Nazionale del Lavoro, a large Italian bank headquartered in
Rome, was involved in $5.5 billion of unauthorized credit activity largely to benefit Iraq in the
1980s. BNL-Atlanta did not document the purposes of all of its loans to Iraq, leading to
allegations that Iraq used the funds for weapons purchases. BNL-Atlanta employed 19 staff, and
received its license to operate as an office of an FBO from the State of Georgia on April 14,
1982. It was primarily examined by the State of Georgia, and the Federal Reserve had umbrella
supervisory authority. BNL-Atlanta offered banking services to Italian companies that had
relationships with other Banca Nazionale del Lavoro offices and was involved in extending
loans. BNL-Atlanta did not accept deposits, nor did it offer deposit insurance through the
Federal Deposit Insurance Corporation.

On August 4, 1989, the FBI, assisted by Federal Reserve representatives, executed a search
warrant on BNL-Atlanta and uncovered evidence that it had engaged in unauthorized credit
transactions with Iraq. The federal authorities initiated the search of BNL-Atlanta based on
information provided by two BNL-Atlanta employees. The U.S. Attorney’s Office for the
Northern District of Georgia created and led an investigative task force (BNL Task Force),
which consisted of representatives from the FBI, the Federal Reserve, Customs and Border
Protection, USDA’s OIG, and the Internal Revenue Service. Bank examiners from the Federal
Reserve Bank of Atlanta were detailed to the BNL Task Force to contribute their knowledge and
experience in banking and regulatory compliance. The BNL Task Force conducted an extensive
investigation into the size and scope of BNL-Atlanta’s unauthorized transactions and identified
$5.5 billion in unauthorized credit activity largely to benefit Iraq.

The investigation revealed that many of the unauthorized transactions were neither recorded on
BNL-Atlanta’s official books and records nor reported to banking regulators or the parent bank
in Rome. The unauthorized activities were concealed by BNL-Atlanta employees through a
variety of means, including maintaining a parallel set of secret books and records, utilizing the
names of legitimate customers to record loans not authorized by the parent bank, and removing
records of unauthorized transactions from the office and moving them between employees’
homes and cars. BNL-Atlanta employees also created fake documentation to conceal the
transactions from internal and external auditors, as well as bank examiners, and filed false
reports with the parent bank in Rome, Banca Nazionale del Lavoro, and with federal and state
regulators. These transactions violated BNL-Atlanta’s lending limits, which were established by
its parent bank.

The purpose of some of BNL-Atlanta’s loans to Iraq was to finance the export of U.S.
agricultural products through a USDA export guarantee program run by the CCC. The Board
participated, along with the Department of the Treasury and other federal agencies, on the NAC,
which was an advisory body to the CCC.




                                               16
The BNL Task Force investigation spanned several years and ultimately resulted in criminal
charges and prosecutions of multiple BNL-Atlanta employees, including the manager,
Christopher Drogoul, as well as Vice Presidents Paul Von Wedel, Thomas Fiebelkorn, and
Therese Barden. The Federal Reserve imposed a consent cease and desist order that required
Banca Nazionale del Lavoro to maintain an additional reserve deposit equivalent to a reserve
deficiency payment of $5.2 million at the Federal Reserve Bank of Atlanta for 18 months.
Congress held multiple hearings related to BNL-Atlanta’s activities. The BNL Task Force final
report, published in October 1994, reviewed criminal allegations relating to BNL-Atlanta’s credit
extensions to Iraq and government actions taken in connection with exports to Iraq. The BNL
Task Force final report stated, “We did not find evidence that U.S. agencies or officials illegally
armed Iraq or that crimes were committed through bartering of CCC commodities for military
equipment.”

To assess undue political interference with Federal Reserve officials related to Iraq weapons
purchases during the 1980s, we searched for evidence of the improper use of the political process
or political authority that could have affected the conduct or decision-making of Federal Reserve
officials. Specifically, we analyzed (1) the Federal Reserve’s supervisory role and actions
regarding BNL-Atlanta, (2) whether BNL-Atlanta borrowed any funds from the Federal Reserve
Bank of Atlanta through the Federal Reserve’s discount window lending program, and (3) the
Board’s participation on the NAC.

We did not find any evidence of undue political interference with Federal Reserve officials
related to Iraq weapons purchases during the 1980s or any indications that the Federal Reserve
facilitated any loans to Iraq through BNL-Atlanta for weapons purchases during the 1980s.
Also, we did not find any evidence of loans between the Federal Reserve and Saddam Hussein or
Iraq during the 1980s. Details of our review follow.

Foreign Bank Supervision in the 1980s

Based on the documents we reviewed, during the 1980s the International Banking Act of 1978
(IBA) governed the supervisory responsibilities for FBOs, such as Banca Nazionale del Lavoro.
The IBA granted primary examination authority for FBOs’ U.S. branches and agencies to the
responsible licensing authorities (the state or the Office of the Comptroller of the Currency) and
provided the Federal Reserve with umbrella supervisory authority. This umbrella supervisory
authority included residual examination authority, but emphasized that the Federal Reserve was
to use, to the extent possible, the examination reports of the primary examination authorities.

In accordance with the IBA, the Board developed a supervisory program in which each FBO
with U.S. operations was assigned to a responsible Federal Reserve Bank. The Federal Reserve
Bank of New York was identified as the responsible Federal Reserve Bank for the U.S.
operations of Banca Nazionale del Lavoro. This responsibility involved evaluating the FBO’s
condition and strength by analyzing reports on its financial condition, periodically contacting the
parent bank’s managers and the home country banking authorities, and reviewing examination
reports by the U.S. office’s primary regulators. The Federal Reserve Bank of Atlanta assisted the
Federal Reserve Bank of New York by ensuring that all offices of Banca Nazionale del Lavoro
in the southeast region were examined on a timely basis and by providing copies of the



                                                17
examination reports to the Federal Reserve Bank of New York after each examination was
completed.

BNL-Atlanta Supervision and Examinations

Based on our review of State of Georgia and Federal Reserve examination reports from 1986 to
1990 and BNL Task Force reports, interviews with State of Georgia bank examiners who
participated in examinations of BNL-Atlanta, and discussions with Federal Reserve bank
examiners, we did not identify any evidence of any undue political interference with Federal
Reserve officials in the examination and supervision of BNL-Atlanta. Consistent with the
regulatory structure described above, the State of Georgia was the primary examination authority
for BNL-Atlanta. The State of Georgia conducted annual examinations of BNL-Atlanta with
limited participation by the Federal Reserve Bank of Atlanta. The Federal Reserve Bank of
Atlanta’s participation was generally limited to a review of compliance with federal laws and
regulations, such as ensuring consistency between the quarterly financial reports submitted by
BNL-Atlanta to banking regulators and BNL-Atlanta’s official books and records.

Prior to the FBI’s execution of the search warrant on BNL-Atlanta in August 1989, the State of
Georgia conducted the bank examinations of BNL-Atlanta and determined its overall safety and
soundness rating, while Federal Reserve Bank of Atlanta examiners provided assistance as
requested throughout the examination process. 3 From 1986 through January 1989, the State of
Georgia assigned BNL-Atlanta overall ratings of 1, indicating that it was in satisfactory
condition and that no violations of laws or regulations were identified during the examinations.
After the search in August 1989, when the unauthorized lending activities were uncovered, the
Federal Reserve performed independent examinations of BNL-Atlanta and assigned overall
ratings of 5 (significant concern). Our review of examination reports from 1986 through 1990
did not identify any unusual examination procedures, and we noted that the BNL Task Force
investigation of BNL-Atlanta’s activities also did not identify any unusual examination practices.

We interviewed State of Georgia and Federal Reserve examination officials who participated in
examinations of BNL-Atlanta and did not find any evidence of undue political interference
regarding their supervision and examinations of BNL-Atlanta. The State of Georgia examination
officials stated that they did not experience any undue political interference with their duties and
did not recall any unusual practices in the examinations of BNL-Atlanta. Similarly, Federal
Reserve examination officials did not report any unusual activity or undue political interference
regarding the supervision of BNL-Atlanta. During the time that BNL-Atlanta conducted the
unauthorized transactions, it was also subject to internal and external audits. According to a
BNL Task Force report, none of the audits or examinations led anyone to suspect the
unauthorized, off-book activities. The BNL Task Force investigation, as well as the officials
from the Federal Reserve and the State of Georgia who we interviewed, indicated that it was
unlikely that BNL-Atlanta’s unauthorized activity would have been detected through audits or


         3
           The examination procedures focused on safety and soundness by evaluating management and supervision,
asset quality and credit administration, liquidity and funds management, earnings, and trading activities, to
determine an overall rating. The overall rating was expressed on a scale from 1 to 5, with 1 being the highest rating
(indicating minimal concern) and 5 being the lowest rating (indicating significant concern).


                                                         18
bank examinations due to the extent of fraudulent documentation and false statements by BNL-
Atlanta employees, as well as collusion by a number of BNL-Atlanta employees.

Following the events at BNL-Atlanta, the Federal Reserve recommended legislation to respond
to the perceived need for more federal oversight resulting from misconduct by a few foreign
banks operating in the United States. Congress passed the Foreign Bank Supervision
Enhancement Act of December 1991, which established minimum standards for foreign bank
entry and expansion into the United States and gave the Federal Reserve enhanced supervisory
and regulatory authority over foreign banks operating in the United States.

The Federal Reserve’s Discount Window and BNL-Atlanta

In addition to analyzing the Federal Reserve’s supervisory role and actions regarding BNL-
Atlanta, we also examined the Federal Reserve’s discount window lending program for any
evidence that it was used to facilitate BNL-Atlanta’s loans. We did not identify any evidence
that funding was provided to BNL-Atlanta. The Board does not engage in lending or providing
any direct funds to commercial banks. The Federal Reserve Banks, the operating arm of the
Federal Reserve System, have the authority to extend loans through the discount window to
member banks in their districts. The discount window lending program serves as a contingency
source of liquidity for eligible banks by providing temporary funding, generally when banks are
experiencing short-term liquidity pressures. The loans are generally provided on an overnight
basis and must be secured by collateral that is approved by the lending Federal Reserve Bank.

The IBA amended the Federal Reserve Act to provide the U.S. operations of FBOs that
maintained reserves in the United States access to their district Federal Reserve Bank’s discount
window lending program on the same terms as access was provided to domestic depository
institutions. To be eligible, offices of FBOs, such as BNL-Atlanta, had to meet requirements
similar to those required of domestic depository institutions, including reserve requirements. We
discussed BNL-Atlanta’s discount window activity with Federal Reserve Bank of Atlanta staff
responsible for the operations and reviewed related congressional testimony by Federal Reserve
officials. We found no evidence that BNL-Atlanta requested or received any loans through the
Federal Reserve Bank of Atlanta’s discount window.

BNL-Atlanta’s Participation in the CCC and the Board’s Participation on the NAC

To finance some of its loans to Iraq, BNL-Atlanta participated in an export guarantee program
run by the CCC. During the 1980s, the CCC was a federal corporation within the USDA that
promoted the export of U.S. agricultural commodities by providing repayment guarantees to U.S.
banks, which financed the exported commodities on behalf of the foreign importer’s bank. The
CCC export guarantee program was used primarily by developing countries, such as Iraq, where
credit was necessary to increase or maintain U.S. export levels and private banks were less
willing to provide financing without such a repayment guarantee. As the USDA was responsible
for the operations and oversight of the CCC, the Federal Reserve did not have any direct
involvement or decision-making authority over the CCC export guarantee program. The Board
participated, along with the Department of the Treasury and other federal agencies, on the NAC,
which was an advisory body to the CCC.



                                               19
Some of BNL-Atlanta’s unauthorized credit arrangements with Iraq were financed through the
CCC export guarantee program. BNL-Atlanta’s parent bank in Rome determined BNL-Atlanta’s
credit policies and limited its individual authority over lines of credit, including CCC-guaranteed
loans, to less than $2.5 million. The BNL Task Force reported, however, that BNL-Atlanta
entered into approximately $1.89 billion in concealed credit arrangements with Iraq to purchase
U.S. agricultural commodities through the CCC.

Following the discovery of BNL-Atlanta’s unauthorized transactions with Iraq, members of
Congress, as well as various newspaper articles, questioned Iraq’s use of the funds, including
allegations of falsified CCC transactions and possible weapons purchases. According to the
BNL Task Force final report, several of these allegations grew out of reports that Iraq may have
acquired military equipment by bartering agricultural commodities that it obtained through the
CCC export guarantee program. The BNL Task Force final report concluded that there was no
evidence that U.S. agencies, or their officials, illegally armed Iraq or that crimes had been
committed through the bartering of CCC agricultural commodities in exchange for military
equipment. In addition, the USDA conducted an administrative review of the CCC export
guarantee program for Iraq that focused on four operational problem areas identified by the
USDA, none of which involved the Federal Reserve.

Congress created the NAC as an advisory group and assigned it the responsibility of evaluating
policies and practices of government agencies that made loans or issued guarantees as part of
foreign lending programs. The NAC advised the USDA on its agricultural export guarantee
programs, such as the CCC, with various countries, including Iraq. However, the NAC itself did
not directly make any loans or issue guarantees. The NAC membership consisted of the Board;
the Departments of the Treasury, State, and Commerce; the U.S. Trade Representative; the U.S.
Export-Import Bank; and the U.S. International Development Cooperation Agency. 4 While the
NAC’s advisory decisions were not binding, the USDA generally obtained NAC approval before
issuing credit guarantees. According to congressional testimony by a Board governor, the
Board’s principal contribution to the NAC was sharing its expertise with the other members and
objectively assessing the financial and economic soundness of proposals brought before the
NAC.

The documentation we reviewed showed that the Board repeatedly raised concerns about Iraq’s
creditworthiness and the amount of proposed CCC guarantees for Iraq during NAC deliberations.
For instance, in August 1988, the Board, along with the Department of the Treasury, objected to
the USDA’s proposal for $1.1 billion in CCC guarantees to Iraq for fiscal year 1989 because it
felt the level was too high given Iraq’s creditworthiness. Similarly, in fall 1989, the Board again
expressed concerns regarding the extension of $1.2 billion in CCC guarantees to Iraq for fiscal
year 1990. While a majority of NAC members supported the fiscal year 1990 proposal, the
Board was concerned about Iraq’s creditworthiness and the increased amount of the proposal.
The unfolding BNL-Atlanta matter also reinforced the Board’s reservations and opposition to
additional CCC guarantees to Iraq for fiscal year 1990. Previously, the Board had opposed
increasing CCC guarantees to Iraq in January 1987 and supported limiting the amount of CCC


       4
           Refer to footnote 1 for additional NAC membership information.


                                                      20
guarantees to Iraq for fiscal years 1986 and 1987. Our review of internal documents and external
reports, and interviews with Federal Reserve officials familiar with the NAC, did not identify
any evidence of undue political interference with Federal Reserve officials related to the Board’s
participation on the NAC. In addition, we did not find any indications that the Board used its
role on the NAC to facilitate BNL-Atlanta’s unauthorized transactions with Iraq.

Overall Conclusion
We did not find any evidence of undue political interference with Federal Reserve officials
related to the 1972 Watergate burglary or Iraq weapons purchases during the 1980s.
Specifically, regarding the first Watergate allegation, we did not find any evidence of undue
political interference with or improper actions by Federal Reserve officials related to the cash
found on the Watergate burglars. Our office also did not find any evidence of undue political
interference with Federal Reserve officials or inaccurate responses by Board officials regarding
the second Watergate allegation (i.e., that the Federal Reserve “stonewalled” congressional
members and staff about the source of the cash found on the burglars). The documentation we
reviewed indicated that the Board’s decision not to provide information requested by
congressional members and staff was consistent with the U.S. Attorney’s Office advising the
Board to not disclose the information because such disclosure may impede the investigation and
jeopardize the subsequent prosecution. Finally, with regard to the Iraq allegation, we did not
find any evidence of undue political interference with Federal Reserve officials or any
indications that the Federal Reserve facilitated a $5.5 billion loan to Iraq for weapons purchases
during the 1980s. We also did not find evidence of any loans between the Federal Reserve and
Saddam Hussein or Iraq during the 1980s.

Analysis of Comments
We provided a draft of our report to the Board’s General Counsel for review and comment. In
his response, the General Counsel stated that our report confirmed past statements by Federal
Reserve officials in relation to these incidents and indicated his appreciation for the thoroughness
of our review. His full response is included as appendix 1.




                                                21
Appendixes
Appendix 1 – Management’s Comments


                                       &O•RD   or   GOVCR ~OP S
                                                OThn:
                                  FE:DERA~ RESERVE SYSTE:N
                                       NII SM·.. l.ION. 1). C. lOSSI


                                                                                   ~..,,;   I \;. 1'-'"~-~ ...
                                                                                   t"':.'<t:P.""" .........~.



                                           ~h29.1012




       Marl<. Bialek.. lnspec«>r Gener•l
       D<>ard <>fG<>''tmors ofthe l'eder:tl Reserve System
       20"' & C Strec·.s, N.W.
       Washington, U.C. 20551

       Dear Mr. lli~kk:

               This is in J"t:spon>e to )•OUr request for our conunent on the dmft repmt titled
       " Inquiry inU> Allc!llltiuns uf lJndue Politidll Interference with Fcdeml Reserve
       Oflicinl~ Relnted tn the 1972 \Vatergatc Rurglary and Iraq \Vc:apuns l'un:hasc~
       during the IQ80s''. Vnur l"eJ"Wll1 conlinns pasL slalcmcnls hy Federal Ri!st·rv.;
       otlicinls that no Fedeml Reserve official v..·a.~o;, suhjccLed to undue polilieal inOuence
       or ncted improperly in relation to these incidents. 1 nm pmticularly gratefi>l f(>r the
       thoroug,hncss of the investigation by the sta!Tofthe O!lice of the Inspecror Gener~l
       ""'' for the d.:tuikd tmd complete rcpm1. We appreciate the oppornU\ity to review
       the <.lr~l\ and hav.,; nu cnmmcnls to offl.T.




                                                     25
Appendix 2 – The Federal Reserve System’s Structure and Function
The Federal Reserve System serves as the central bank of the United States. It was established
by Congress in 1913 and includes 12 regional Federal Reserve Banks and an independent federal
agency called the Board of Governors of the Federal Reserve System. The OIG is an
independent oversight authority within the Board.

Board of Governors of the Federal Reserve System

The Board is an independent federal government agency located in Washington, D.C. The
Federal Reserve Act provides that the Board shall consist of seven members, called governors,
who are appointed by the President and confirmed by the Senate. In addition to conducting
research, analysis, and policymaking related to domestic and international financial and
economic matters, the Board plays a major role in the supervision and regulation of the U.S.
banking system. It also has broad oversight responsibility for the nation’s payments system,
which includes ensuring that enough cash is in circulation to meet demand, and oversees the
operations and activities of the Federal Reserve Banks.

Federal Reserve Banks

The Federal Reserve Banks are the operating arms of the nation’s central banking system.
Congress chartered the Federal Reserve Banks for a public purpose; however, they combine both
public and private elements in their makeup and organization. Each Federal Reserve Bank has a
nine-member board of directors that oversees its operations. For the purpose of carrying out the
day-to-day operations of the Federal Reserve, there are 12 Federal Reserve districts, each
managed by a separate Federal Reserve Bank: Boston, New York, Philadelphia, Cleveland,
Richmond, Atlanta, Chicago, St. Louis, Minneapolis, Kansas City, Dallas, and San Francisco.

Many of the services that the Federal Reserve Banks provide to depository institutions and the
government are similar to services provided by banks to business customers and individuals.
Federal Reserve Banks hold the cash reserves of depository institutions and make loans to
depository institutions at the discount window. They move currency and coin into and out of
circulation; collect and process millions of checks each day; and operate automated
clearinghouses, which are computerized facilities that allow for electronic exchange of payments
among participating depository institutions. They maintain the U.S. Treasury’s operating cash
account to support the Treasury’s transactions, issue and redeem government securities, and
serve as a fiscal agent for the U.S. government. Under delegated authority from the Board, they
supervise and examine the safety and soundness of state-chartered banks that are members of the
Federal Reserve System, as well as bank holding companies and foreign bank offices in the
United States.

Office of Inspector General

Pursuant to the 1988 amendments to the Inspector General Act of 1978, Congress established the
OIG as an independent oversight authority for the Board, the government agency component of
the broader Federal Reserve System. In addition, the Dodd-Frank Wall Street Reform and


                                               27
Consumer Protection Act established the OIG as an independent oversight authority for the
Bureau of Consumer Financial Protection (CFPB). Within this framework, the OIG conducts
audits, investigations, and other reviews of the Board’s and the CFPB’s program functions.
Through this work, the OIG promotes integrity, economy, efficiency, and effectiveness; helps
prevent and detect fraud, waste, abuse, and mismanagement; and strengthens the agencies’
accountability to Congress and the public.




                                              28
Appendix 3 – OIG Chronology of the Board’s Responses to Congressional
Inquiries Related to the Watergate Burglary




                           Chronology of Board Correspondence (1972)
   June 17 Watergate burglary and arrest of the burglars.
   June 19 (9:45 a.m.) The Board’s Special Assistant receives a phone call from Senator Proxmire’s
     staff requesting information about the bills found on the Watergate burglars and responds that he
     will look into it. That afternoon, Chairman Burns receives a letter from Senator Proxmire
     reiterating this request.
   June 19 (12:37 p.m.) Board staff state during a conversation with Senator Proxmire’s staff that the
     Board has an obligation to ascertain from law enforcement authorities whether disclosing the
     requested information would interfere with the investigation.
   June 19 (4:20 p.m.) Chairman Burns replies in a letter to Senator Proxmire that the Board does not
     have knowledge of the Federal Reserve Bank that issued the bills or of the commercial bank to
     which they were transferred. He also states that once the investigative authorities provided that
     information, he would be glad to cooperate.
   June 19 (5:00 p.m.) The Board’s Director of Reserve Bank Operations (DRBO) calls the FBI and is
     advised of the names of the two Federal Reserve Banks that issued the bills.
   June 20 (9:50 a.m.) The Board’s DRBO tells other Board staff the names of the two Federal Reserve
     Banks that he was told issued the bills and states he does not know whether the Federal Reserve
     Banks have been contacted by the FBI.
   June 20 (10:05 a.m.) The Federal Reserve Bank of Philadelphia notifies the Board’s DRBO of
     contact with the FBI. The Federal Reserve Bank of Philadelphia also states it has been contacted
     by Senator Proxmire’s staff and requests guidance as to how to handle the congressional request.
   June 20 (10:10 a.m.) The Board’s Special Assistant calls Senator Proxmire’s office. Senator
     Proxmire’s staff member states that he learned the FBI had contacted “the Federal Reserve” and
     that the Board is not being responsive. The Board’s Special Assistant affirms that no one at the
     Board “had been contacted by the FBI.”
   June 20 (10:10 a.m.) Upon conclusion of the above phone call, the Board’s DRBO tells the Board’s
     Special Assistant about his discussion with the Federal Reserve Bank of Philadelphia, in which the
     Federal Reserve Bank of Philadelphia reported contact with the FBI and requested guidance in
     handling the congressional request.
   June 20 (11:00 – 11:30 a.m.) Board staff meet with Chairman Burns for an update. The Board’s
     DRBO is directed to obtain the position of the FBI with respect to the release of information and
     also asked to contact the two Federal Reserve Banks to ensure they are cooperating with the
     investigative authorities and to obtain available information.
   June 20 (11:55 a.m.) The Board’s Special Assistant confirms the Federal Reserve Bank of
     Philadelphia’s contact with the FBI to Senator Proxmire’s staff, but states he does not have any
     details. He says that the situation is fluid and further information will be provided when it is more
     definite.
   June 20 (before 12 p.m.) The Board’s DRBO calls the FBI regarding the release of information and
     is referred to the U.S. Attorney’s Office for the District of Columbia (U.S. Attorney’s Office).



                                                     29
                        Chronology of Board Correspondence (1972)
June 20 (12 p.m.) The Board’s DRBO calls the Federal Reserve Bank of Philadelphia and learns that
  the bank informed the FBI on the afternoon of June 19 that 10 of the bills found on the burglars had
  been shipped by the Federal Reserve Bank of Philadelphia to the Girard Bank and Trust Company
  in Philadelphia.
June 20 (after 12 p.m.) The Federal Reserve Bank of Atlanta’s Miami branch contacts the Board’s
  DRBO to report contact with the FBI on the afternoon of June 19. The Miami branch states that it
  advised the FBI that the serial numbers on the bills described had not been paid out of the bank.
  The Board’s DRBO suggests that the Miami branch re-contact the FBI to clarify the matter.
June 20 (after 12 p.m.) The Board’s DRBO contacts the Federal Reserve Bank of Atlanta, which
  reports it had been contacted by the FBI on June 19 and told the agent that the bills described had
  been forwarded to its Miami branch.
June 20 (2:20 p.m.) The Board’s General Counsel contacts the U.S. Attorney’s Office to discuss the
  disclosure of the information to Congress. The U.S. Attorney opposes the disclosure to Senator
  Proxmire or any other congressional members as such prior disclosure may impede the
  investigation and potentially jeopardize the conduct of a fair trial.
June 20 (after 2:20 p.m.) The Board notifies the Federal Reserve Bank of Philadelphia and the
  Federal Reserve Bank of Atlanta’s Miami branch of the U.S. Attorney’s Office’s advice to not
  share information regarding the bills found on the burglars with anyone other than the investigative
  authorities. During this conversation, the Miami branch reveals that it reviewed its records and
  determined that seven of the $100 bills described by the FBI had been paid by the branch to the
  Republic National Bank in Miami. It reports that it already provided the corrected information to
  the FBI.
June 20 (3:45 p.m.) The Board’s Special Assistant reads a prepared statement to Senator Proxmire’s
  staff indicating that the Board contacted the FBI and the U.S. Attorney’s Office and was advised
  that the information should not be released to anyone other than the investigative authorities.
June 20 (after 4:00 p.m.) Senator Proxmire issues a press release stating that the Board has avoided
  his calls requesting information on the bills found on the burglars. The Senator further asserts that
  the purpose of the Board’s refusal to cooperate with his request is to cover up for the Executive
  Branch. The press release states, “At the same time that the FBI told my staff on Monday [June
  19] they had already been in touch with the Federal Reserve to identify where the bills came from,
  Chairman Arthur Burns wrote to me that ‘We at the Board have no knowledge of the Federal
  Reserve [B]ank which issue[d] those particular notes’.”
June 21 The Board issues a press statement to address Senator Proxmire’s claims, which states that
  it was advised by the U.S. Attorney’s Office to not disclose information other than to responsible
  law enforcement agencies.
July 28 Chairman Burns sends Senator Proxmire a letter stating that Board staff contacted the U.S.
  Attorney’s Office twice, as well as consulted with the Board’s legal advisors and members of the
  Board. The letter states that the Board’s legal advisors recommend that the Board follow the U.S.
  Attorney’s Office’s advice by not disclosing the requested information. The letter also denies
  Senator Proxmire’s claim that the Board is covering up for someone high in the Executive Branch.
August 1 Senator Proxmire sends a letter to Chairman Burns stating that he is now aware that the
 “. . . U.S. Attorney did not ask in any formal way” that Chairman Burns withhold the information
 from him. Senator Proxmire states that much of the information he sought is now public and it
 clearly ties in the President’s Re-election Committee with the bugging incident.




                                                 30
Appendix 4 – Abbreviations
BEP                Bureau of Engraving and Printing
BNL-Atlanta        Atlanta office of Banca Nazionale del Lavoro
Board              Board of Governors of the Federal Reserve System
CFPB               Bureau of Consumer Financial Protection
CCC                Commodity Credit Corporation
Committee          House Committee on Financial Services
CV&D               Cash Verification and Destruction
DOJ                Department of Justice
DRBO               Board’s Director of Reserve Bank Operations
FBI                Federal Bureau of Investigation
FBO                Foreign Banking Organization
Federal Reserve    Federal Reserve System (includes Federal Reserve Board and Federal
                   Reserve Banks)
GAO                Government Accountability Office
IBA                International Banking Act of 1978
NAC                National Advisory Council on International Monetary and Financial
                   Policies
OIG                Office of Inspector General
State of Georgia   Georgia Department of Banking and Finance
U.S. Attorney’s    U.S. Attorney’s Office for the District of Columbia
  Office
USDA               U.S. Department of Agriculture




                                          31
